                    National Aeronautics and
                    Space Administration

                    Office of Inspector General
                    Washington, D.C. 20546-0001




Reply to Attn of:   W                                                                            May 19, 2003


                    TO:            0100/Director, Glenn Research Center at Lewis Field

                    FROM:          W/Assistant Inspector General for Auditing

                    SUBJECT:       Final Management Letter for Audit of Contract Administration for Glenn’s
                                   Management Operations Contract
                                   Assignment Number A-01-046-01
                                   Report Number IG-03-014


                    In Office of Inspector General Audit Report IG-03-003, “NASA Contracts for
                    Professional, Administrative, and Management Support Services,” issued
                    October 16, 2002, we identified potential contract administration problems unique to the
                    management operations contract that Glenn Research Center (Glenn) has with InDyne,
                    Inc. InDyne, Inc. provides Glenn with logistics, imaging technology, publishing,
                    metrology, and library services and administrative and clerical support under a 5-year
                    performance-based, cost plus incentive fee and award fee contract. As of December 31,
                    2002, the contract value, including unexercised options, was about $103 million. We
                    conducted this audit to determine whether Glenn adequately supported technical incentive
                    fee determinations for contract services and addressed the appearance of inappropriate
                    involvement of civil servants in the contractor’s employee awards program. Enclosure 1
                    contains details on our audit scope and methodology.

                    We found that Glenn adequately supported technical incentive fee determinations for 90
                    percent of the fee available to the contractor. However, Glenn did not have current and
                    complete data to support fee determinations for $180,000 for administrative and clerical
                    support, which represented 10 percent of the total technical fee.

                    We also found that InDyne revised its internal Special Achievement cash award
                    procedures to require its supervisors to independently make all employee award decisions,
                    eliminating the appearance of inappropriate involvement of Glenn civil servants in the
                    contractor’s employee awards program. Our prior audit found cases where InDyne’s cash
                    awards for employees were inappropriately influenced by recommendations from Glenn
                    civil servants.
Incomplete Support for 10 Percent of Technical Incentive Fee Determinations

The contracting officer’s technical representative (COTR) delegated responsibility for
monitoring the contractor’s work performance to technical representatives (TRs). The
delegations, which were signed by the TRs, included a requirement that the TRs submit
monthly evaluation reports for the COTR’s use in determining the contractor’s technical
incentive fee. However, for the 6-month period May 1 to October 31, 2002, Glenn TRs
submitted only 142 (50 percent) of the 282 required monthly evaluation reports related to
administrative and clerical support. Additionally, we found that 8 (17 percent) of the 47
TRs did not submit any required monthly evaluation reports during the 6-month period.
The COTR did not follow up monthly with the TRs to obtain the missing evaluation
reports. Instead, the COTR used the rating in prior evaluation reports to determine the
technical incentive fee for the month in question. The data used from prior evaluation
reports resulted in incentive fee evaluations based, in part, on information that was more
than 6 months old.

Recommendation, Management Response, and Evaluation of Management Response

The Director, Glenn Research Center at Lewis Field, should direct the COTR for the
InDyne, Inc. contract to verify that TRs submit required monthly evaluation reports to
support technical incentive fee determinations for administrative and clerical support and
where the TRs have not submitted the required evaluation reports, to remind the TRs of
the requirement in their letters of delegation.

Management Response. Concur. The COTR will send out notices on the 20th and 27th
of each month to remind the TRs of their delegated responsibility to submit a monthly
evaluation report. The COTR will review all monthly TR submissions. Any TR omission
will result in notification to the TR of the delegated contractual responsibility to submit a
monthly evaluation survey, with a suspense date of 5 working days. If the TR is still
unresponsive, a telephone call will be made to the TR’s next higher-level supervisor,
requesting assistance in obtaining the evaluation. The complete text of management’s
response is in Enclosure 2.

Evaluation of Management Response. Management’s corrective action is responsive to
the recommendation. The recommendation is resolved and dispositioned and will be
closed.




                                              2
We appreciate the courtesies and cooperation provided to the auditors during the audit. If
you have questions, or would like to discuss this matter further, please contact
Mr. Joseph F. Kroener, Director, Procurement Directorate, at (202) 358-2566;
Mr. Lorne A. Dear, Associate Director, Procurement Directorate, at (818) 354-5634; or
Mr. Michael P. Bruns, Lead Auditor, at (216) 433-8918.


[original signed by]
David M. Cushing

2 Enclosures

cc:
H/Audit Liaison Representative
JM/Director, Management Assessment Division
GRC/3-12/Audit Liaison Representative




                                     3
                                                                               Enclosure 1


                                Scope and Methodology

We performed audit field work at Glenn from October 2002 to January 2003. To
determine whether Glenn adequately supported technical incentive fee determinations for
contract services, we reviewed the contract quality assurance surveillance plan, TR letters
of delegation, and monthly evaluation reports and performance results for the period
May 1 to October 31, 2002. Additionally, we discussed monitoring procedures and
monthly evaluation reports with the COTR.

To determine whether Glenn provided appropriate oversight to the contractor’s employee
awards process, we obtained guidance from Office of Inspector General legal counsel
regarding contractor employee awards and personal services issues, obtained a list of all
employee cash awards made during 2002, and reviewed contractor award policies and
accounting practices. We statistically sampled 10 employee cash awards made during
2002 and reviewed the supporting documentation. We performed the audit in accordance
with generally accepted government auditing standards.
Enclosure 2
